February 25, 2003

JON M. STEELE
VICE PRESIDENT, NORTHEAST AREA OPERATIONS

SUBJECT: Audit Report – Sexual Harassment Prevention Measures in the Albany and
         Southeast New England Districts – Northeast Area
         (Report Number LH-AR-03-004)

This report presents the results of our audit of sexual harassment prevention measures
in the Albany and Southeast New England Districts, Northeast Area (Project
Number 02YG010LH004). Our overall objective was to determine if the districts had
adequate policies and procedures in place to prevent sexual harassment in the
workplace, and to effectively address sexual harassment complaints to mitigate liability.
This report is based on a self-initiated review, and is the fourth in a series of ten reports
we will be issuing regarding sexual harassment prevention measures Postal Service-
wide.

We found that the Albany and Southeast New England Districts’ sexual harassment
policies and procedures were adequate, employees found responsible for sexual
harassment or inappropriate actions/comments were appropriately disciplined or
corrective action was taken, and managers/supervisors were considered for exclusion
from the Pay for Performance Program. In addition, although no Postal Service national
policy existed regarding the retention time for informal complaint files, both districts
were retaining files indefinitely and storage of files was adequate. We also found,
however, that some sexual harassment complaints in both districts were not effectively
addressed.

The report included two recommendations to help the Albany and Southeast
New England Districts improve their sexual harassment prevention program.
Management agreed with part of recommendation 1 and all of recommendation 2. The
actions taken or planned should correct some of the issues identified in this report.
Management disagreed, however, with part of the finding that some complaints were
not effectively addressed, and disagreed with part of recommendation 1 to fully
document detailed evidence of the actions taken to address complaints. The Office of
Inspector General (OIG) considers that part of recommendation 1 as unresolved and
will address it in a separate capping report to the senior vice president, Human
Resources. Management’s comments and our evaluation of these comments are
included in this report.
The OIG considers recommendations 1 and 2 significant and, therefore, requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
follow-up tracking system until the OIG provides written confirmation that the
recommendations can be closed.

We appreciate the cooperation and courtesies provided by your staff during the audit.
If you have any questions, please contact Chris Nicoloff, director, Labor Management,
at (214) 775-9114, or me at (703) 248-2300.



B. Wayne Goleski
Assistant Inspector General
 for Core Operations

cc: Suzanne F. Medvidovich
    Murry E. Weatherall
    Timothy C. Healy
    Donald Marshall
    Susan M. Duchek
Sexual Harassment Prevention Measures in the Albany                   LH-AR-03-004
 and Southeast New England Districts – Northeast Area


                                   TABLE OF CONTENTS

 Executive Summary                                                           i

 Part I

 Introduction                                                                1

     Background                                                              1
     Objective, Scope, and Methodology                                       1
     Prior Audit Coverage                                                    1

 Part II

 Audit Results                                                               2

     Policies and Procedures Adequate                                        2

     Employees Appropriately Disciplined or Corrective Action Taken          3

     Managers/Supervisors Considered for Exclusion from Pay for              5
      Performance

     Some Complaints Not Effectively Addressed                               7
     Recommendations                                                         8
     Management’s Comments                                                   8
     Evaluation of Management’s Comments                                     8

     File Retention and Storage Adequate                                   12

 Appendix A. Objective, Scope, and Methodology                              13

 Appendix B. Management’s Comments                                          15




                                         Restricted Information
Sexual Harassment Prevention Measures in the Albany                                 LH-AR-03-004
 and Southeast New England Districts – Northeast Area


                                  EXECUTIVE SUMMARY
 Introduction                  This report presents the results of our audit of sexual
                               harassment prevention measures in the Albany and
                               Southeast New England Districts, located in the Northeast
                               Area. This review was self-initiated to determine if the
                               districts had adequate policies and procedures in place to
                               prevent sexual harassment in the workplace, and to
                               effectively address sexual harassment complaints to
                               mitigate liability.

 Results in Brief              The audit revealed that the Albany and Southeast New
                               England Districts’ sexual harassment policies and
                               procedures were adequate and that employees found
                               responsible for sexual harassment or inappropriate
                               actions/comments were appropriately disciplined or
                               corrective action was taken. We also found that
                               managers/supervisors responsible for sexual harassment or
                               inappropriate actions/comments were considered for
                               exclusion from the Pay for Performance Program. In
                               addition, although no Postal Service national policy existed
                               regarding the retention time for informal complaint files, both
                               districts were retaining files indefinitely and storage of files
                               was adequate. Finally, we found some sexual harassment
                               complaints in both districts were not effectively addressed.

 Summary of                    The report included two recommendations to help the
 Recommendations               Albany and Southeast New England Districts improve their
                               sexual harassment prevention program. We recommended
                               management, instruct the Albany and Southeast
                               New England District managers to establish controls to
                               ensure managers and supervisors effectively address all
                               sexual harassment complaints and inappropriate
                               actions/comments of a sexual nature and fully document
                               detailed evidence of the actions taken to address
                               complaints; and the Equal Employment Opportunity office
                               notifies district management of all complaints of sexual
                               harassment or inappropriate actions/comments of a sexual
                               nature.

 Summary of                    Management agreed with part of recommendation 1 that
 Management’s                  managers and supervisors must effectively address all
 Comments                      sexual harassment complaints and all of recommendation 2.
                               Management stated that by March 15, 2003, the Northeast



                                                    i
                                         Restricted Information
Sexual Harassment Prevention Measures in the Albany                                                      LH-AR-03-004
 and Southeast New England Districts – Northeast Area



                                    Area would reissue a 1999 policy that developed and put
                                    into place an investigation process to respond quickly to any
                                    claims of sexual harassment to remind districts of their
                                    responsibilities.

                                    Management disagreed, however, with the finding that
                                    some sexual harassment complaints were not effectively
                                    addressed and with the part of the recommendation to fully
                                    document detailed evidence of the actions taken to address
                                    complaints. They stated Postal Service guidelines allow
                                    managers maximum flexibility to address complaints simply
                                    and directly between the parties without a formal written
                                    record; and although all matters of sexual harassment will
                                    be fully investigated, not all will result in a full written record.

                                    Management agreed with recommendation 2 that the
                                    district Equal Employment Opportunity office notifies
                                    management of all complaints of sexual harassment or
                                    inappropriate actions/comments of a sexual nature and
                                    stated that all Equal Employment Opportunity offices will be
                                    notified by March 31, 2003, of this policy. Management’s
                                    comments, in their entirety, are included in Appendix B of
                                    this report.

    Overall Evaluation of           Management’s actions taken or planned are responsive
    Management’s                    to the first part of recommendation 1 and all of
    Comments                        recommendation 2. Management’s comments are not
                                    responsive to the second part of recommendation 1. We
                                    believe documentation plays an important role in
                                    determining creditably and mitigating liability. We do not
                                    agree with management’s rationale for not documenting
                                    actions taken to address complaints. Postal Service policy
                                    is clear that serious complaints must be documented, and
                                    further provides that “When in doubt, document.” The OIG
                                    considers recommendation 1 unresolved and will address it
                                    in a separate capping report.1




1
  We will issue a capping report on the audit results for the nine areas we visited, including Northeast Area, where
recommendations regarding national policy will be made to the senior vice president, Human Resources.



                                                          ii
                                               Restricted Information
Sexual Harassment Prevention Measures in the Albany                                                  LH-AR-03-004
 and Southeast New England Districts – Northeast Area


                                              INTRODUCTION
    Background                       Sexual harassment is defined by law as unwelcome sexual
                                     advances, requests for sexual favors, and other verbal or
                                     physical conduct of a sexual nature that becomes a term or
                                     condition of employment. According to a Postal Service
                                     Law Department report, in fiscal years (FY) 2000 and 2001,
                                     the Postal Service paid approximately $1,192,6192 for
                                     sexual harassment judgments and settlements in the
                                     Northeast Area.

    Objective, Scope, and            Our overall objective was to determine if the districts had
    Methodology                      adequate policies and procedures in place to prevent sexual
                                     harassment in the workplace, and to effectively address
                                     sexual harassment complaints to mitigate liability. Our
                                     objective, scope, and methodology are discussed in
                                     Appendix A.

    Prior Audit Coverage             We did not identify any prior audits or reviews related to the
                                     objective of this audit in these two districts.




2
    This amount represents 12 complaints. None of these complaints were within the scope of our review.



                                                          1
                                               Restricted Information
Sexual Harassment Prevention Measures in the Albany                                                    LH-AR-03-004
 and Southeast New England Districts – Northeast Area


                                             AUDIT RESULTS
    Policies and                    We found that the Albany and Southeast New England
    Procedures Adequate             Districts had adequate policies and procedures that should
                                    enable district management to identify and prevent sexual
                                    harassment or inappropriate actions/comments, and provide
                                    management with guidance to respond effectively to
                                    complaints, thus mitigating liability and costs.

                                    We also found that the districts:

                                        •    Established as district policies, Postal Service
                                             Publication 552, Manager’s Guide to Understanding
                                             Sexual Harassment, and Publication 553,
                                             Employee’s Guide to Understanding Sexual
                                             Harassment.

                                        •    Established investigative teams at the district level to
                                             investigate all complaints.

                                        •    Used Voice of the Employee surveys3 to monitor the
                                             work environment and when necessary provided
                                             additional training to raise awareness.




3
  The Voice of the Employee survey was a data collection instrument that the Postal Service had established to help
improve workplace relationships and to ensure all employees were treated with fairness, felt safe in their workplace,
had opportunities to participate in improvements, and took pride in being Postal Service employees.



                                                          2
                                               Restricted Information
Sexual Harassment Prevention Measures in the Albany                                                     LH-AR-03-004
 and Southeast New England Districts – Northeast Area




    Employees Appropri-              We found that employees responsible for sexual
    ately Disciplined or             harassment or inappropriate actions/comments were
    Corrective Action                appropriately disciplined, or corrective action was taken.
    Taken
                                     Equal Employment Opportunity Commission 1990 and
                                     1999 guidelines recommended agencies take immediate
                                     and appropriate corrective action, including discipline, when
                                     sexual harassment occurred. Postal Service policy stated
                                     employees engaged in sexual harassment would be subject
                                     to disciplinary action, up to and including removal. The
                                     policy also stated that disciplinary action might result even if
                                     the conduct was not sexual harassment as defined by the
                                     law, but was inappropriate and of a sexual nature.

                                     Our review of formal and informal4 complaints in the Albany
                                     and Southeast New England Districts showed that:

                                          •   Of the 12 formal and informal sexual harassment
                                              complaints filed in the Albany District, sexual
                                              harassment or inappropriate actions/comments were
                                              not substantiated in 2, and substantiated in 6. For
                                              the remaining four complaints, management did not
                                              conduct an inquiry or investigation to determine
                                              whether sexual harassment or inappropriate
                                              actions/comments had occurred, and thus no
                                              discipline or corrective action was considered or
                                              taken.

                                              – In the six substantiated complaints,
                                                five employees5 were involved and all were
                                                appropriately disciplined or corrective action
                                                was taken.

                                          •   Of the ten formal and informal complaints filed in the
                                              Southeast New England District, sexual harassment
                                              or inappropriate actions/comments were
                                              substantiated in five, and inconclusive in five.




4
    The term “informal” complaint refers to those not filed using the Equal Employment Opportunity process.
5
    One employee was involved in two complaints.



                                                           3
                                                Restricted Information
Sexual Harassment Prevention Measures in the Albany                                LH-AR-03-004
 and Southeast New England Districts – Northeast Area



                                       – In the five substantiated complaints,
                                         five employees were involved and all were
                                         appropriately disciplined or corrective action
                                         was taken.

                                       – In the five inconclusive complaints,
                                         four employees and one contractor were involved.
                                         The four employees received refresher sexual
                                         harassment prevention training, and the
                                         contractor’s contract was terminated.




                                                    4
                                         Restricted Information
Sexual Harassment Prevention Measures in the Albany                                             LH-AR-03-004
 and Southeast New England Districts – Northeast Area




    Managers/                    We found that managers/supervisors found responsible for
    Supervisors                  sexual harassment or inappropriate actions/comments were
    Considered for               considered for exclusion from the Pay for Performance
    Exclusion from Pay           Program6 in the Albany and Southeast New England
    for Performance              Districts.

                                 Equal Employment Opportunity Commission guidelines
                                 included a reduction in wages as an effective corrective
                                 measure to stop harassment and ensure it does not
                                 reoccur. Postal Service policy stated an employee whose
                                 conduct was clearly unacceptable may be excluded from
                                 the Pay for Performance Program. The Postal Service
                                 described unacceptable behavior as “notoriously disgraceful
                                 or immoral conduct, or other conduct prejudicial to the
                                 Postal Service.”

                                 We found:

                                     •    Five employees in the Albany District were found
                                          responsible for sexual harassment or inappropriate
                                          actions/comments. One was a manager/supervisor
                                          who was eligible for the Pay for Performance
                                          Program and was excluded.

                                     •    Five employees in the Southeast New England
                                          District were found responsible for sexual
                                          harassment or inappropriate actions/comments.
                                          Three were managers/supervisors who were eligible
                                          for the Pay for Performance Program. Of the
                                          three, one was excluded and the remaining two were
                                          considered for exclusion.

                                          – One manager/supervisor received $2,558 in
                                            FY 2000, and was demoted voluntarily, to a
                                            nonsupervisory Executive and Administrative
                                            Schedule position. According to district
                                            management, the manager/supervisor’s conduct
                                            did not warrant exclusion.




6
 The Pay for Performance Program, formerly referred to as the Economic Value Added Program, was an incentive
award program for nonbargaining employees. The amount of money received by each employee was based on a
group achievement of performance targets and financial measurements.



                                                       5
                                            Restricted Information
Sexual Harassment Prevention Measures in the Albany                               LH-AR-03-004
 and Southeast New England Districts – Northeast Area



                                       – The other manager/supervisor received $2,864 in
                                         FY 2001, and was demoted from an Executive
                                         and Administrative Schedule level 21 to a level 15.
                                         District management stated exclusion from the
                                         program would not have been appropriate, as the
                                         employee worked the entire fiscal year in a lower
                                         level position without incident.




                                                    6
                                         Restricted Information
Sexual Harassment Prevention Measures in the Albany                                                   LH-AR-03-004
 and Southeast New England Districts – Northeast Area




 Some Complaints Not Our audit disclosed that 7 of the 22 complaints were not
 Effectively Addressed effectively addressed in the Albany and Southeast
                       New England Districts. Equal Employment Opportunity
                       Commission guidelines defined an “effective” investigation
                       as a prompt, thorough, and impartial review with
                       documented evidence. Postal Service policy required
                       managers to conduct sexual harassment inquiries promptly
                       and investigate all complaints, and document “serious”
                       complaints with detailed evidence.7

                                   We found that:

                                        •   Postal Service national policy did not require that “all”
                                            complaints be documented—only those that
                                            managers believed were “serious.”

                                        •   Of the 12 formal and informal complaints filed in the
                                            Albany District, 7 were effectively addressed and
                                            5 were not.

                                            – For the five not effectively addressed, one was
                                              not documented and four were not investigated.

                                            – District management said for the four complaints
                                              not investigated, the complaints were filed directly
                                              with the Equal Employment Opportunity office and
                                              that office did not notify district management.
                                              This precluded them from conducting their own
                                              investigation.

                                            – District management stated for the one not
                                              documented, an inquiry/investigation was
                                              conducted, however, they did not document that
                                              the employees were immediately separated.

                                        •   Of the ten formal and informal complaints filed in the
                                            Southeast New England District, eight were
                                            effectively addressed and two were not.



7
  Publication 552 was revised effective September 2001, and replaced the term “serious” with the statement “some
complaints can be resolved simply and directly between the parties without the need for a formal written record.” The
revised policy also provided that managers/supervisors needed to decide early in the process whether formal
documentation was warranted, and that a good rule of thumb was when in doubt, document.



                                                         7
                                              Restricted Information
Sexual Harassment Prevention Measures in the Albany                                LH-AR-03-004
 and Southeast New England Districts – Northeast Area



                                       – For the two not effectively addressed, both were
                                         investigated, neither was prompt.

                                       – In one complaint, district management stated the
                                         complainant was unavailable due to termination.

                                       – In the other complaint, the facility postmaster did
                                         not immediately conduct an investigation due to
                                         the December mail volume.

                               Complaints not effectively addressed could result in liability
                               because the Postal Service cannot demonstrate it exercised
                               reasonable care to prevent and promptly correct harassing
                               behavior. We believe the lack of a Postal Service policy
                               requiring documentation of all complaints and the lack of
                               communication between the Equal Employment Opportunity
                               office and district management may have been factors.
                               We will address these issues in a separate report.

 Recommendation                We recommend the vice president, Northeast Area
                               Operations, instruct the Albany and Southeast New England
                               District managers to establish controls to ensure:

                                   1. Managers and supervisors effectively address all
                                      sexual harassment complaints and inappropriate
                                      actions/comments of a sexual nature and fully
                                      document detailed evidence of the actions taken to
                                      address complaints.

 Management’s                  Management agreed with part of the recommendation that
 Comments                      all sexual harassment complaints be promptly, thoroughly,
                               and impartially investigated. Management also stated an
                               effective investigation is one that produces sufficient and
                               timely information that allows management to take
                               appropriate corrective action, or to close the matter.
                               Management stated that by March 15, 2003, the Northeast
                               Area would reissue a 1999 area wide policy that requires the
                               districts to respond quickly to any claims of sexual
                               harassment.

                               Management disagreed, however, with part of the
                               recommendation to fully document detailed evidence of the
                               actions taken to address complaints. Management stated




                                                    8
                                         Restricted Information
Sexual Harassment Prevention Measures in the Albany                                   LH-AR-03-004
 and Southeast New England Districts – Northeast Area


                               Postal Service guidelines allow managers maximum
                               flexibility to address complaints simply and directly between
                               the parties without a formal written record. Management
                               stated all matters of alleged sexual harassment will be fully
                               investigated, however, not all will result in a full written
                               record with detailed evidence of the actions taken to address
                               the complaints.

                               Management also disagreed with the finding that some
                               complaints were not effectively addressed and stated in one
                               Albany District complaint, the audit team’s main concern
                               was that management did not document it had immediately
                               separated the employees involved. They also stated this
                               complaint was timely investigated, documented, and brought
                               to a conclusion. Management further stated the incident
                               occurred three months before it was reported to
                               management; therefore, management had no opportunity to
                               immediately separate the employees.

                               Management also stated two Southeast New England
                               District complaints were investigated as soon as possible
                               and that any delay was due to the unavailability of the
                               complainants—one of which was away from work, and the
                               other who did not complain until almost a month after
                               quitting the Postal Service.

                               Management further stated that pursuant to Postal Service
                               policy, the first step in an investigation following receipt of a
                               complaint is to interview the complainant. They stated until
                               the complainant is interviewed, management would not
                               know what to investigate, and runs the risk of investigating
                               the wrong matter. Management stated if the complainant
                               was unavailable for an interview when the complaint is
                               received, it would be counter to Postal Service policy and a
                               waste of resources to immediately start the investigation.

 Evaluation of                 Management’s planned action is responsive to the first part
 Management’s                  of our recommendation, however, it is not responsive to the
 Comments                      second part of the recommendation. We believe
                               documentation plays an important role in determining
                               creditably and mitigating liability. Specifically, it provides a
                               record of the action management took to address and
                               resolve sexual harassment complaints. We do not agree
                               with management’s rationale for not documenting actions
                               taken to address complaints. Postal Service policy is clear



                                                    9
                                         Restricted Information
Sexual Harassment Prevention Measures in the Albany                              LH-AR-03-004
 and Southeast New England Districts – Northeast Area



                               that serious complaints must be documented, and further
                               provides that “When in doubt, document.” We believe the
                               policy does not limit management from documenting all
                               actions; it simply establishes a floor, not a ceiling for
                               addressing complaints. We view the disagreement on this
                               recommendation as unresolved and it will be addressed in
                               our capping report.

                               We disagree with management that complaints identified in
                               the report were effectively addressed. The report states our
                               definition of effective included whether or not a complaint
                               was documented or promptly addressed. The date and time
                               employees were separated in the one Albany case was not
                               documented. Management’s actions in response to the two
                               New England complaints were not prompt. In these cases,
                               management’s position that it could not interview the
                               complainants appears to be based on the complainants’
                               absence from the workplace, which we do not believe is an
                               adequate reason. To our knowledge, there was nothing to
                               preclude management from reaching the complainants at
                               their residences.

 Recommendation                We recommend the vice president, Northeast Area
                               Operations, instruct the Albany and Southeast New England
                               District managers to establish controls to ensure:

                                   2. The Equal Employment Opportunity office notifies
                                      district management of all complaints of sexual
                                      harassment or inappropriate actions/comments of a
                                      sexual nature.

 Management’s                  Management agreed with our recommendation that the
 Comments                      Equal Employment Opportunity office notifies district
                               management of all complaints of sexual harassment or
                               inappropriate actions/comments. They stated that the
                               Equal Employment Opportunity offices will be directed by
                               March 31, 2003, to notify district management of all
                               complaints of sexual harassment when the complainant has
                               waived anonymity during the Equal Employment Opportunity
                               counseling phase and all complaints of sexual harassment
                               when a formal complaint is filed.




                                                   10
                                         Restricted Information
Sexual Harassment Prevention Measures in the Albany                            LH-AR-03-004
 and Southeast New England Districts – Northeast Area




 Evaluation of                 Management’s actions taken or planned should correct the
 Management’s                  issues identified in the report.
 Comments




                                                   11
                                         Restricted Information
Sexual Harassment Prevention Measures in the Albany                                    LH-AR-03-004
 and Southeast New England Districts – Northeast Area




 File Retention and            Our audit found there was no Postal Service policy
 Storage Adequate              regarding the retention time for informal complaint files.
                               However, both districts retained informal complaint files
                               indefinitely and storage of files was also adequate.

                               Equal Employment Opportunity Commission guidance
                               stated formal sexual harassment complaint files should be
                               retained for at least 4 years after resolution of the complaint.
                               Postal Service policy stated once an inquiry/investigation
                               was conducted, files should be forwarded for storage, to the
                               district Human Resources manager. According to a
                               headquarters senior Postal Service manager, the intent of
                               this policy was to centrally locate the files with the Human
                               Resources manager.

                               Retaining and storing informal complaint files in a central
                               location ensures file availability if needed to mitigate liability.
                               We will address the need for a national retention policy in a
                               separate report.




                                                   12
                                         Restricted Information
Sexual Harassment Prevention Measures in the Albany                                                   LH-AR-03-004
 and Southeast New England Districts – Northeast Area




          APPENDIX A. OBJECTIVE, SCOPE, AND METHODOLOGY
Our objective was to determine if the Albany and Southeast New England Districts, in
the Northeast Area, implemented adequate policies and procedures to prevent sexual
harassment8 in the workplace and to effectively address sexual harassment complaints
to mitigate liability. Our district selections were based on interviews with the senior vice
president, Human Resources; vice president, Diversity Development; and vice
president, Northeast Area. We also considered the number of closed formal sexual
harassment complaints in each of the nine Northeast Area districts.

To accomplish our objective, we reviewed applicable laws, policies, procedures, and
other documents including Equal Employment Opportunity Commission guidelines,
Postal Service national policies, the Northeast Area, and the Albany and Southeast
New England District policies for preventing sexual harassment in the workplace. We
also reviewed Postal Service national policy regarding the Pay for Performance
Program. In addition, we reviewed previously issued OIG reports related to sexual
harassment issues. Further, we interviewed Postal Service Headquarters, Northeast
Area, and Albany and Southeast New England District officials.

To determine if adequate policies and procedures were in place to prevent sexual
harassment from occurring in the workplace, we identified Equal Employment
Opportunity Commission key recommendations to agencies regarding policies and
procedures that should be in place to prevent sexual harassment and reduce the risk of
agency liability. We then reviewed the Postal Service national, Northeast Area, and
Albany and New England Districts’ policies and procedures to determine if the
recommendations were included.

To determine whether district managers effectively addressed informal sexual
harassment complaints to mitigate liability, we analyzed the documentation contained
in formal and informal complaint files that were filed and closed9 in FYs 2000 and
2001,10 for the two districts we selected. We recorded information related to
promptness, thoroughness, impartiality, and the level of documentation. These fiscal
years were chosen because they were the most recent and complete fiscal years at the
time of our fieldwork. The number of formal and informal closed complaints was
obtained from the Postal Service Equal Employment Opportunity case file database and
district management, respectively. We then excluded those complaints where the
employees filed their complaints directly with the Equal Employment Opportunity office
and requested confidentiality. These were excluded because honoring the request for
8
  For the purpose of this report, we used the legal definition of sexual harassment as unwelcome sexual conduct that
is a term or a condition of employment (29 C.F.R. § 1604.11(a)). In addition, we included the Postal Service policy
regarding inappropriate actions/comments of a sexual nature when reviewing sexual harassment complaint files.
9
  Sexual harassment complaints may be considered closed for a number of reasons including (1) the
inquiry/investigation was completed, (2) a settlement had been reached, (3) the complaint was withdrawn, or
(4) discipline or corrective action was taken.
10
   We used Postal Service fiscal years that started September 11, 1999, and ended September 7, 2001.



                                                        13
                                              Restricted Information
Sexual Harassment Prevention Measures in the Albany                                                LH-AR-03-004
 and Southeast New England Districts – Northeast Area


confidentiality precluded the Equal Employment Opportunity office from notifying district
management that a complaint had been made. This in turn precluded management
from conducting an investigation. We then determined there were 22 closed complaint
files as follows:

                                                       Complaints               Total Complaints
                         District
                                                     Formal  Informal              Per District
          Albany                                       5         7                     12
          Southeast New England                        4         6                     10
            Total                                      9        13                     22

We also determined if the retention and storage of informal files were adequate using
Postal Service national, area, and district policies as well as Equal Employment
Opportunity Commission guidelines.

In addition, we determined whether employees found responsible for sexual harassment
received appropriate discipline using Equal Employment Opportunity Commission
guidelines, Postal Service policies and procedures, and some elements of the Douglas
Factors.11 We included in this determination whether or not managers or supervisors
found responsible for sexual harassment or inappropriate actions/comments were
considered for exclusion from the Pay for Performance Program.

This audit was conducted from February 2002 through February 2003 in accordance
with generally accepted government auditing standards and included such tests of
internal controls as were considered necessary under the circumstances. We
discussed our conclusions and observations with appropriate management officials and
included their comments, where appropriate.




11
  The Douglas Factors were developed as a result of case law (Douglas v. the Veterans’ Administration) where the
Merit Systems Protection Board ruled that management must document certain factors to be considered in making a
determination of appropriate disciplinary action.



                                                       14
                                             Restricted Information
Sexual Harassment Prevention Measures in the Albany               LH-AR-03-004
 and Southeast New England Districts – Northeast Area



                  APPENDIX B. MANAGEMENT’S COMMENTS




                                                   15
                                         Restricted Information
Sexual Harassment Prevention Measures in the Albany               LH-AR-03-004
 and Southeast New England Districts – Northeast Area




                                                   16
                                         Restricted Information
Sexual Harassment Prevention Measures in the Albany               LH-AR-03-004
 and Southeast New England Districts – Northeast Area




                                                   17
                                         Restricted Information
Sexual Harassment Prevention Measures in the Albany               LH-AR-03-004
 and Southeast New England Districts – Northeast Area




                                                   18
                                         Restricted Information
Sexual Harassment Prevention Measures in the Albany               LH-AR-03-004
 and Southeast New England Districts – Northeast Area




                                                   19
                                         Restricted Information
